UN ITED STATES OF AM ERICA

FEDERAL TRADE COMMISSION
W ASH IN GTO N , D .C. 20580

O ffice of the Secretary

May 3, 2012
Jonathan Sheldon
Carolyn Carter
National Consumer Law Center
7 Winthrop Square
Boston, Massachusetts 02110
Dear Mr. Sheldon and Ms. Carter:
This letter is in response to the National Consumer Law Center’s request for a
Commission advisory opinion regarding the Federal Trade Commission’s Trade Regulation Rule
Concerning Preservation of Consumers’ Claims and Defenses, 16 C.F.R. § 433, commonly
known as the Holder Rule.1 Specifically, you ask the Commission to affirm that the Holder Rule
does not limit a consumer’s right to an affirmative recovery to circumstances where the
consumer can legally rescind the transaction or where the goods or services sold to the consumer
are worthless. Your letter states that even though the plain language of the Rule is clear—which
FTC staff confirmed in a 1999 opinion letter2—some courts continue to bar consumers from
affirmative recoveries unless rescission is warranted.3

1

Your letter requesting an advisory opinion is co-signed by representatives from Public
Citizen, U.S. PIRG, the Center for Responsible Lending, and the National Association of
Consumer Advocates.
2

3

See Attachment, FTC Staff Letter (Sept. 25, 1999).

Your letter lists six cases that have been decided since the issuance of the 1999 FTC
staff opinion letter that have held that a consumer may only obtain an affirmative recovery
against a creditor under the Holder Rule when the seller’s breach is so substantial that rescission
and restitution are justified or where the goods or services sold to the consumer are worthless:
Rollins v. Drive-1 of Norfolk, Inc., No. 2:06cv375, 2007 WL 602089 (E.D. Va. Feb. 21, 2007);
Phillips v. Lithia Motors, Inc., No. 03-3109-HO, 2006 WL 1113608 (D. Or. Apr. 27, 2006);
Costa v. Mauro Chevrolet, Inc., 390 F. Supp. 2d 720 (N.D. Ill. 2005); Comer v. Person Auto
Sales, Inc., 368 F. Supp. 2d 478 (M.D.N.C. 2005); Herrara v. North & Kimball Group, Inc., No.
01C7349, 2002 U.S. Dist. LEXIS 2640 (N.D. Ill. Feb. 15, 2002); Bellik v. Bank of America, 869
N.E.2d 1179 (Ill. App. Ct. 2007). You cite Comer as pointedly rejecting the FTC staff opinion
letter. Comer notes that the staff letter is “not binding on the Commission.” 368 F. Supp. 2d at
490.

Jonathan Sheldon and Carolyn Carter -- Page 2
The Holder Rule protects consumers who enter into credit contracts with a seller of goods
or services by preserving their right to assert claims and defenses against any holder of the
contract, even if the original seller subsequently assigns the contract to a third-party creditor. In
particular, the Holder Rule requires sellers that arrange for or offer credit to finance consumers’
purchases to include in their credit contracts the following Notice:
ANY HOLDER OF THIS CONSUMER CREDIT CONTRACT IS
SUBJECT TO ALL CLAIMS AND DEFENSES WHICH THE
DEBTOR COULD ASSERT AGAINST THE SELLER OF
GOODS OR SERVICES OBTAINED [PURSUANT HERETO
OR] WITH THE PROCEEDS HEREOF. RECOVERY
HEREUNDER BY THE DEBTOR SHALL NOT EXCEED
AMOUNTS PAID BY THE DEBTOR HEREUNDER.
16 C.F.R. § 433.2.
A creditor or assignee of the contract is thus subject to all claims or defenses that the
consumer could assert against the seller. The Holder Rule does not create any new claims or
defenses for the consumer; it simply protects the consumer’s existing claims and defenses. The
only limitation included in the Rule is that a consumer’s recovery “shall not exceed amounts
paid” by the consumer under the contract.
Thus, the plain language of the Rule permits a consumer to assert a seller’s misconduct
(1) to defend against a creditor’s lawsuit for amounts owed under the contract and/or (2) to
maintain a claim against the creditor for a refund of money the consumer has already paid under
the contract (i.e., an affirmative recovery). Despite the Rule’s plain language, however, some
courts have imposed additional limitations on a consumer’s right to affirmative recovery.
Beginning with Ford Motor Credit Co. v. Morgan, 536 N.E.2d 587 (Mass. 1989),4 these courts
have allowed affirmative recovery only if the consumer is entitled to rescission or similar relief
under state law.5 Courts following the Morgan approach have not imposed any similar
limitation on a consumer’s right to raise the seller’s misconduct as a defense in a lawsuit.

4

In Morgan, the court faced extensive consumer misconduct in connection with the
financing of a car purchase. After experiencing problems with the car, the consumer concealed
the automobile, removed the battery, removed or deflated the tires, and surrendered the
automobile only after being found in contempt by the trial judge. He also delayed the sale of the
automobile, during which time it was extensively vandalized, resulting in a total loss that was
not recoverable due to the consumer’s failure to obtain insurance. The creditor sued the
consumer for the balance due under the contract, and the consumer filed a counterclaim based on
the dealer’s misrepresentations. Notably, in contravention of the one express limitation in the
Holder Rule, the consumer sought recovery of an amount in excess of what the consumer had
paid under the contract. The court ultimately held that the consumer was not entitled to any
affirmative recovery, but he did not have to pay the remaining balance due. 536 N.E.2d at 588.
5

See, e.g., n.3, supra.

Jonathan Sheldon and Carolyn Carter -- Page 3
The Commission affirms that the Rule is unambiguous, and its plain language should be
applied.6 No additional limitations on a consumer’s right to an affirmative recovery should be
read into the Rule, especially since a consumer would not have notice of those limitations
because they are not included in the credit contract. Had the Commission meant to limit
recovery to claims subject to rescission or similar remedy, it would have said so in the text of the
Rule and drafted the contractual provision accordingly. It remains the Commission’s intent that
the plain language of the Rule be applied, which many courts have done.7
The purpose of the Holder Rule, as stated in the Rule’s Statement of Basis and Purpose
(“SBP”), supports this plain reading. The Commission adopted the Rule to provide recourse to
consumers who otherwise would be legally obligated to make full payment to a creditor despite
breach of warranty, misrepresentation, or even fraud on the part of the seller.8 The Commission
found that “the creditor is always in a better position than the buyer to return seller misconduct
costs to sellers, the guilty party,”9 and therefore concluded that “[s]ellers and creditors will be
responsible for seller misconduct.”10 Moreover, the Commission considered, but firmly rejected,
a suggestion by industry representatives that the Rule be amended so that a consumer “may
assert his rights only as a matter of defense or setoff against a claim by the assignee or holder,”

6

See Qwest Corp. v. Colorado Public Utilities Comm’n, 656 F.3d 1093, 1099 (10th Cir.
2011) (“We begin with the plain language of the regulation. . . . If the regulation’s language is
clear, our analysis ends and we must apply its plain meaning.”) (internal citations and quotations
omitted); Lozada v. Dale Baker Oldsmobile, Inc., 91 F. Supp. 2d 1087, 1095 (W.D. Mich. 2000)
(“No basis exists for referring to the commentary to understand the meaning of language that is
unambiguous on its face.”).
7

See, e.g., Lozada, 91 F. Supp. 2d at 1094-95; Simpson v. Anthony Auto Sales, Inc., 32
F. Supp. 2d 405, 409 n.10 (W.D. La. 1998); Riggs v. Anthony Auto Sales, 32 F. Supp. 2d 411,
416 n.13 (W.D. La. 1998); Beemus v. Interstate Nat’l Dealer Servs., Inc., 823 A.2d 979, 984-85
(Pa. Super. Ct. 2003); Jaramillo v. Gonzalez, 50 P.3d 554, 561 (N.M. Ct. App. 2002); Scott v.
Mayflower Home Improvement Corp., 831 A.2d 564, 573-74 (N.J. Super. Ct. Law Div. 2001).
8

See 40 Fed. Reg. 53506, 53507 (Nov. 18, 1975) (“The rule is directed at what the
Commission believes to be an anomaly. . . . The creditor may assert his right to be paid by the
consumer despite misrepresentation, breach of warranty or contract, or even fraud on the part of
the seller, and despite the fact that the consumer’s debt was generated by the sale.”)
9

Id. at 53523 (emphasis added); see also id. at 53509 (“Between an innocent consumer,
whose dealings with an unreliable seller are, at most, episodic, and a finance institution
qualifying as ‘a holder in due course,’ the financer is in a better position both to protect itself and
to assume the risk of a seller’s reliability.”); id. at 53523 (“We believe that a rule which compels
creditors to either absorb seller misconduct costs or return them to sellers, by denying sellers
access to cut-off devices, will discourage many of the predatory practices and schemes. . . . The
market will be policed in this fashion and all parties will benefit accordingly.”).
10

Id. at 53524.

Jonathan Sheldon and Carolyn Carter -- Page 4
finding instead that “[t]he practical and policy considerations which militate against such a
limitation on affirmative actions by consumers are far more persuasive.”11 For example, the
Commission noted that some consumers may feel compelled to continue payments because of
the threat of negative credit reporting and that “a stronger potential consumer remedy will
encourage greater policing of merchants by finance institutions.”12
Thus, to give full effect to the Commission’s original intent to shift seller misconduct
costs away from consumers, consumers must have the right to recover funds already paid under
the contract if such recovery is necessary to fully compensate the consumer for the
misconduct—even if rescission of the transaction is not warranted. Otherwise, whether a
consumer is able to be fully compensated would depend on how much the consumer paid under
the contract at the time of the dispute. For example, consider a consumer who finances the
purchase of an automobile, later discovered to be defective, for $10,000 and is entitled to
compensation of $3,000 based on the seller’s misrepresentations regarding the condition of the
automobile. If the consumer has paid $4,000 under the financing contract and still owes $6,000,
the consumer could withhold $3,000 of the balance due and be fully compensated—a defensive
posture sanctioned by Morgan. If, however, the consumer has paid $8,000 and owes $2,000, the
Morgan approach would permit the consumer to withhold the remaining $2,000 payment, but
not affirmatively recover the additional $1,000 that would be necessary to make the consumer
whole.13 There is no basis under the plain language and the intent of the Rule for such an
anomalous result.
Courts that have followed the Morgan approach have misinterpreted two isolated
comments in the SBP that accompanies the Rule. In part, the SBP states that affirmative
recovery by the consumer “will only be available where a seller’s breach is so substantial that a
court is persuaded that rescission and restitution are justified”14 and that consumers “will not be
in a position to obtain an affirmative recovery from a creditor, unless they have actually
commenced payments and received little or nothing of value from the seller.”15 However, when
read in context of the entire SBP, including the SBP language highlighted above, the two SBP
comments cited by Morgan and its progeny do not undermine the plain language of the Rule. As
explained by one court that rejected the Morgan approach, “[w]here one or more parts of the
[SBP] fully comport with the text of the rule while another, read in a particular way, is at odds
with the plain language of the regulation, there exists no basis for giving controlling weight to an

11

Id. at 53526.

12

Id. at 53527.

13

This example is drawn from Michael Greenfield & Nina Ross, Limits on a Consumer’s
Ability to Assert Claims and Defenses Under the FTC’s Holder in Due Course Rule, 46 Bus.
Law. 1135, 1140 (1991).
14

40 Fed. Reg. at 53524.

15

Id. at 53527.

Jonathan Sheldon and Carolyn Carter -- Page 5
interpretation which narrows the language of the rule itself.”16 These statements should be read
as practical observations or predictions, instead of as contradicting the Rule. In most instances
where there is significant consumer injury associated with seller misconduct but rescission is not
warranted, the consumer is likely to find out about the injury shortly after the transaction is
consummated, and thus is likely to stop payments before the claim amount is larger than the
balance due. In other words, affirmative recoveries will be rare in cases where rescission is not
justified because such recoveries occur only if the consumer’s claim is larger than what the
consumer still owes on the loan.17 When read in this context, the two SBP comments do not
conflict with the rest of the SBP and the plain language of the Rule.
Thus, the Commission affirms the plain language of the Holder Rule and the intent of the
Rule as discussed in the entire SBP. Specifically, the Rule places no limits on a consumer’s
right to an affirmative recovery other than limiting recovery to a refund of monies paid under the
contract. Further, the Rule does not limit affirmative recovery only to those circumstances
where rescission is warranted or where the goods or services sold to the consumer are worthless.
By direction of the Commission.

Donald S. Clark
Secretary

16

17

Lozada, 91 F. Supp. 2d at 1096.

See id. at 1095 (noting that the SBP “is susceptible of being understood as a statement
of agency prediction that affirmative recoveries will occur only when courts are persuaded that
the equities so require and when damages exceed the amount due on the account”); accord
Jaramillo, 50 P.3d at 561.

